OIG Audit Report GR-50-08-006

Office of Community Oriented Policing Services Grant to the Benton Harbor Police Department, Benton Harbor, Michigan

Audit Report GR-50-08-006


May 2008
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Benton Harbor, Michigan, Police Department (BHPD). The purpose of the COPS in Schools (CIS) grant program is to provide funding directly to local, state, and tribal jurisdictions for the hiring and deployment of new, additional, career law enforcement officer position(s) in and around primary and secondary schools. The BHPD was awarded a total of $1 million to hire eight new, full-time police officers for 3 years, starting September 1, 2004. 
 We reviewed the BHPD’s compliance with six essential grant conditions.1 We found the BHPD to be in material non-compliance with COPS’ grant requirements for each of the grant conditions, including budgeting for local officer positions, hiring of additional officers, source of local match requirements, requesting reimbursements, retaining officer positions, and community policing strategies. Because of these deficiencies, we question a total of $743,701 in reimbursements received by the BHPD.2

 Rather than increasing its local law enforcement budget to include its local share for the grant, the BHPD decreased its budget for local law enforcement salaries and fringe benefits for FY 2006 and FY 2008. The BHPD also had a corresponding reduction in the number of sworn police officers. The Chief of Police stated that the city of Benton Harbor had experienced lower revenues than anticipated, which necessitated city-wide budget reductions. 
 The BHPD did not maintain the required level of officer positions during the CIS award period. The BHPD was below the target level for on-board officers for 22 of the 39 months during the period September 2004 through November 2007, resulting in questioned costs of $107,134. 
 The BHPD did not establish and maintain accounting systems and financial records to accurately account for grant funds awarded and disbursed. 
 The BHPD did not provide us with documentation, such as daily activity reports, to support that all of the grant-funded officers performed grant-related activities during the grant period. As a result, we question a total of $288,730, which consists of $211,999 in salaries and $76,730 in fringe benefit expenditures. 
 The BHPD charged the grant for the costs associated with senior law enforcement officers, including routine salary and fringe benefit increases related to contractual pay increases. We question the $99,245 in excess salaries charged to the grant because these costs were not identified in the COPS-approved budget. In addition, we question the $22,077 in related excess fringe benefits. 
 The BHPD charged the grant for the salary and fringe benefit costs for more officers than the eight officers approved and awarded. As a result, for the months of March and April 2007, the BHPD requested reimbursement of $18,386 for salary and fringe benefit costs for eight extra officers that were not allowable. 

 The BHPD requested and received reimbursement twice for travel expenditures that it incurred to send eight officers to the required COPS in Schools training workshop. As a result, we question the $5,109 charged to the grant for the travel. 

 The BHPD did not have adequate documentation to support $2,804 charged to the grant for health benefit expenditures. 
 The BHPD had not adequately identified the source and dates of matching fund contributions. Further, BHPD officials stated that they charged the grant for the actual costs associated with senior-level officers, including increases in salary and fringe benefits. Once the grant funds were exhausted, the City used its general fund as the source of its local match obligations for officer salaries and fringe benefits, which included local funds previously budgeted for law enforcement. Because the grantee did not maintain adequate records and did not provide the necessary matching funds from sources not previously budgeted for law enforcement, we question $200,216. 
 The BHPD’s plan for retaining the grant-funded officers appears inadequate. BHPD officials stated that the City had received a pledge of private funds from local sources totaling an estimated $250,000, which it intends to utilize for the retention of its officers. However, based on the BHPD’s estimated costs per officer, the BHPD needs approximately $400,000 to retain all eight of the CIS grant-funded officers. Grantee officials stated that they continue to attempt to identify additional, new sources of private funding. However, as shown in the graph in the Hiring of Officers section of this report, the BHPD fell below its target level for the period November 2006 through November 2007 by one to three positions. As a result, we question the BHPD’s ability to retain all eight grant-funded positions in addition to its locally funded positions for the required retention period. 
 The BHPD did implement the community policing activities listed in the grant application in a limited number of its schools. However, for several periods of the grant, the BHPD was unable to provide documentation to support that it deployed all of the eight grant-funded officers within the schools. While the Chief of Police stated that he was confident that the BHPD had deployed eight officers in the schools throughout the grant period, without documentation we were unable to verify that the BHPD reached with its activities the number and types of students as outlined in its application. 

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. We discussed the results of our audit with BHPD officials, and we included their comments in the report, as applicable. In addition, we provided our draft audit report to the BHPD and the COPS office and received written comments. These comments have been appended to our report along with our analysis of the responses.



Footnotes

Additional information about our audit objectives, scope, and methodology appear in Appendix I. 
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.








Return to OIG Home Page